                              ,Closeout f o r M96090030


   In May 1996, the subject,l president of a small business and PI of a Small
Business Innovation Research (SBIR) proposa1,z was alleged to have plagiarized
material from a published paper into his declined NSF SBIR proposal. We
concluded that the subject had plagiarized ideas, text, formulas, figures, and
references from three published papers.
   OIG's investigation report and NSF's Deputy Director's letter reflecting his
decision constitute the closeout for this case.


cc: Integrity, IG




   1   (footnote redacted).
   2   (footnote redacted).


                                  Page 1of 1                                  M95-34
                     NATIONAL SCIENCE FOUNDATION
                         4201 WILSON BOULEVARD
                        ARLINGTON, VIRGINIA 22230


                                      February 9, 1999


    OFFICE OF THE
  D E P W DIRECTOR


CERTIFIED MAIL --RETURN RECEIPT REOUESTED




Re: Notice of Misconduct in Science Determination
Dear Dr.
In                                 submitted a Small Business
Research Innovation (SBIR) research proposal               to the
                                                           in the
                           at the National Science Founda~ionfor
                                                              -
a project entitled
             ."
                                                  i

             As the President of        and the named Principal
Investigator on the grant, you were responsible for the
preparation of the proposal. As documented in the attached
Investigative Report prepared by NSF's Office of Inspector
General (OIG), your proposal plagiarized text from three
published papers.'
The OIG sent you a copy of their investigative report in April,
1998 and apprised you that you could submit comments on the
report directly to the Foundation's Deputy Director by May 4,
1998. You did not submit any comments to the Foundation on the
OIG report.
Under NSF1s regulations, llmisconductnis defined to include
"plagiarism, or other serious deviation from accepted practices
in proposing, carrying out, or reporting results from activities
funded by NSF." 45 CFR. §6.89.1(a).
Your proposal contains verbatim plagiarism of text and figures
from three published papers. Although you reference two of these
papers in your proposal, the references do not adequately apprise
the reader of your extensive reliance on these papers. In key
places, you failed to provide proper attribution or clearly
distinguish the copied text from your own. Your submission of a
proposal to NSF that extensively copies the ideas or words of
others without adequate attribution, as described in the
Investigation Report, constitutes plagiarism as well as a serious
deviation from accepted practices within the scientific
community. I therefore conclude that you committed misconduct in
science under NSF1s regulations.
NSF1s regulations establish three categories of actions (Group I,
11, and 111) that can be taken in response to a finding of
misconduct. 45 CFR §689.2(a). Group I actions include issuing a
letter of reprimand conditioning awards on prior approval of
particular activities from NSF; and requiring certifications on
the accuracy of reports or assurances of compliance with
particular requirements. 45 CFR §689.2(a) (1). Group I1 actions
include restrictions on designated activities or expenditures;
and special reviews of requests for funding. 45 CFR 8
689.2(a)(2). Group I11 actions include suspension or termination
of awards; debarment or suspension from participation in NSF
programs; and prohibitions on participation as NSF reviewers,
advisors or consultants. 45 CFR S 689.2(a) (3).
In deciding what response is appropriate, NSF has considered the
seriousness of the misconduct, whether it was deliberate or
careless; whether it was an isolated event or part of a pattern;
and whether the misconduct affects only certain funding requests
or has implications for any application for funding involving the
subject of the misconduct finding. See 45 C.F.R. §689.2(b).
I, therefore, take the following action:
   If you or your company submit any document associated with
proposing, carrying out or reporting research to NSF before
November 30, 2001, you must simultaneously submit a copy of the
document along with a separate written certification that you
reviewed NSF1s Misconduct in Science Regulation ( 4 5 C.F.R. Part
689) and that the document contains no plagiarized material, to
the Associate Inspector General for Scientific Integrity, 4201
Wilson Boulevard, Arlington, Virginia, 22230.
   You are excluded from serving as an NSF peer reviewer, adviser
or panelist' until November 30, 2001.
Procedures Governins Aw~eals
Under NSF1s regulations, you have 30 days after receipt of this
letter to submit an appeal of this decision, in writing, to the
Director of the Foundation. 45 CFR §689.9(a). Any appeal should
be addressed to the Director at the National Science Foundation,
4201 Wilson Boulevard, Arlington, Virginia 22230. For your
information we are attaching a copy of the applicable
regulations. If you have an questions about the foregoing,
please call Lawrence Rudolph, General Counsel, at (703) 306-1060.

                                 Sincerely,


                              Joseph Bordogna
                           C/ Acting Deputy Director

Enclosures
  CONFIDENTIAL




NSF OIG INVESTIGATION
                    REPORT


           April 3, 1998


    OIG Case Number M96090030
        REPORT OF INVESTIGATION INTO AN ALLEGATION
                OF MISCONDUCT IN SCIENCE

                                            SUMMARY
    The Office of Inspector General (OIG) has concluded that the subject,l president
of a small business,2 plagiarized from three published papers into his proposal3 that
he submitted to the National Science Foundation's (NSF's) Small Business
Innovation Research (SBIR) program. Comparison of the subject's proposal and the
three published papers shows extensive, verbatim plagiarism of text, a figure,
references, and formulas from one paper; verbatim plagiarism of text from the
second paper; and a figure from the third paper.. The evidence demonstrates the
subject was solely responsible for the preparation and submission of the proposal
and is therefore solely responsible for the plagiarism therein.
   We recommend that NSF find that the subject committed misconduct in science
and take the following actions a s a final disposition in this case. First, NSF should
send a letter of reprimand to the subject informing him t h a t NSF has made a      .
finding of misconduct in science against him. Second, for 3 years from the final
disposition of this case, NSF should require the subject to submit a certification to
OIG, signed by himself and countersigned by the PI of any federally sponsored
research the subject works on, that any documents the subject prepares in
connection with that project contain no plagiarism, i.e., the documents are either
entirely the work of the subject and his co-authors, or they distinguish4 others' work
and contain the appropriate references. Third, NSF should exclude the subject from
participating a s a n NSF reviewer, advisor, or consultant for 3 years from the final
disposition of this case. Finally, we suggest that NSF consider whether the subject
has been convicted of a crime that would warrant a debarment when making its
decision.
                                        BACKGROUND
   Within a 5-week period, the subject submitted seven. proposals5 to NSF's SBIR
program through the small business of which he was president. The subject's
proposals were submitted as Phase I SBIR proposals. A Phase I proposal is "a six-
month effort to determine the scientific, technical and commercial merit and
feasibility of the proposed concept or idea . . . ."6 We learned that one of the

    1(footnote redacted).
   2 (footnote redacted).
   3 (footnote redacted).
   4 We use the word distinguish to indicate a method, such a s font, indentation, or quotation
marks, that is used to differentiate copied material and original material in a document.
   5 (footnote redacted).
   6 NSF's Grant Proposal Guide (NSF 95-27), pg. 18.
subject's proposals (see footnote 3; Tab 1) allegedly contained material that was
plagiarized from the source paper (Tab 2) that had been previously published on
that research topic.7 It was also alleged that the subject's proposal was based on
the same basic research ideas put forth in the source paper and relied significantly
on the theory and application of that theory described in the source paper. Our
comparison of the subject's proposal to the source and background papers shows
that the subject's proposal contained approximately 91 lines of text, 6 references, 5
formulas, and 1figure that were identical to the source paper.
  As part of the subject's Phase I proposal, he proposed a feasibility study of a n
instrument he planned to construct. The source paper described signals to be
detected and proposed a n instrument to measure them. During our inquiry, we
determined that the subject's proposal also contained approximately 27 lines of
verbatim text fiom a second paper-the background paper (Tab 3).8
   We made several unsuccessful attempts to obtain a n explanation from the subject
for the similarity of his proposal to the published papers. We sent the subject what
turned out to be the first of three letters9 (see Tab 4) requesting the subject's input.
After several months elapsed without a response from the subject, we attempted to
speak with the subject by telephone.10 When a n OIG staff scientist identified
himself to the subject, the subject hung up the telephone. The OIG scientist
immediately called the subject back, reached a n answering machine, and left a
message for the subject to call OIG. We did not receive a response from the subject
and then sent-him a second letter requesting his explanation.11 After the second
letter, we received the subject's only response. He left a voice mail message12
saying he had received our (two) letters, but he not been able to respond because he
had foot surgery. Furthermore, the subject said he would not be able to respond to
our request for information for a n additional 3 months-the amount of time he said
was required for his recovery. We sent the subject a third letter13 indicating that,
without further explanation, we didn't find it credible that foot surgery would
prevent him from responding to our requests for information. We also told him that
unless we received a response to the questions asked in our first letter, we would
proceed without benefit of his input and, based on the information we had, we
would recommend to NSF that he be found to have committed misconduct in
science. We note that 7 months have passed since his request that we wait 3
months for him to respond, and we have received no indication from the subject that
he is now ready to cooperate.

    7 (footnote redacted).
    8 (footnote redacted).
    9 The first letter from OIG to the subject was sent April 4, 1997; we requested his response to
that letter by A p d 21, 1997. All letters were sent via Federal Express flab 4).
    ' 0 An OIG staff scientist called the subject on May 30, 1997.
        The second letter was sent June 2, 1997, and we requested his response by June 13, 1997.
    12 The subject called at 5:20 p.m. on June 6, 1997.
    13 The third letter was sent June 27, 1997. In that letter, we informed the subject that unless we
received his response by July 11, 1997, we would proceed without his input.

                                                                                                     3
   After the subject did not respond to our requests for his input, we asked a
Program Director,l4 who is a n expert in the proposal's field of science, to compare
the source paper and the proposal to evaluate the significance and seriousness of
the overlap between the two documents. In addition to his evaluation, he noticed
figure 4 in the proposal was a n unattributed reproduction of figure 7 from a third
paper (Tab 5).15 His memorandum is provided in Tab 6 .


                               EXTENT OF THE PLAGIARISM
  For ease of comparison, the material that appears verbatim in the source paper
(Tab 2), the background paper (Tab 3), and the subject's proposal (Tab 1) is
highlighted in yellow in the tabbed documents. The unattributed figure that
appears in the subject's proposal and the third paper (Tab 5) is highlighted in .
orange in the tabbed documents.



   Comparison of the subject's proposal and the source paper shows copied material
from the source paper comprises approximately:
   3.5 lines of verbatim text from the "Introduction" section into the "The Physics of
   Tornadoes" section of his proposal;
   23 lines of verbatim text and 1reference, in addition to xerographically
   reproducing one figure, from the "Background section into the "Technical
   Background, The Physics of Tornadoes" section of his proposal;
   52 lines of verbatim text, 5 formulas, and 4 references from the "Tornado seismic
   signal (TSS) characteristics" section into the "Technical Background, Tornadic
   Seismic Waves and Spectral Properties" of his proposal; and
   9 lines of verbatim text from the "Possible existence of TSS measurement^'^
   section and 4 lines of verbatim text plus 1reference from the "Seismic tornado
   detector (STD) into the "Phase I Technical Objectives" section of his proposal.
   What made this verbatim use of material from the source paper more serious was
the fact that it incorporated some of the intellectual ideas presented in the source
paper. The proposal contained the basic ideas and formulas in the paper to create a
proposal for essentially the same concept described in the source paper. The
proposal duplicated almost all of the text that justified why the proposed idea and
instrument should work. I n the "Technical Objectives" section of his proposal, the
proposal included unattributed information from the source paper that was related
to the design of the proposed instrument, e.g., a basic description of the device along
with some proposed operating parameters.

   14   (footnote redacted).
   '6   (footnote redacted).
   The Program Director noted '%he most verbatim overlap between the proposal
and the [source paper] occurs in Section 111, 'Technical Background'. This is the
section where the scientific and technical justification is provided for using [this
specific] approach to the . . . problem. In Fis] opinion, the proposal does make use
of the intellectual ideas presented in the [source paper] . . . ." He found two major
aspects in that section to be significant. One aspect was "[Qigure 3 of the proposal
appears to be a direct copy of [the source paper's] figure 1. This figure and the
accompanying discussion in Section 111.1embodies the physical definition of the
problem that must be solved in order to develop [the proposed instrument]."l6 The
second aspect was the "substantial overlap in Section 111.2, . . . [i]n [which] the
mathematical basis for [the physical principle upon which the proposed instrument
operates] is derived."l'


                                          AND THIRDPAPERS
                               THEBACKGROUND
  OIG's comparison of the subject's proposal with the background paper showed
that the subject had also copied from -it. The subject copied from the background
paper approximately:
   19 lines of verbatim text from the "Radar Horizon Problems" section into the
   "Doppler Radar: Advantages, Limitations, a n d Shortcomings, The Radar Horizon
   Problem" section of his proposal; and
   8 lines of verbatim text from the "Aspect Ratio Problems" section into the
   "Doppler Radar: Advantages, Limitations, a n d Shortcomings, Aspect Ratio
   Problems'' of his proposal.
   As noted earlier, the Program Director also noticed t h a t the subject had copied
into his proposal without any attribution a figure from a third paper. (Figure 4 in
the subject's proposal is a reproduction of figure 7 in the third paper.) He noted
"this is a well-know figure in the . . . research community. . . . While this figure
should have been referenced, it is not a significant part of the proposal,"l8 because
the subject does not even mention the figure in the text. The figure caption in the
proposal contains approximately 2.5 lines copied from the figure caption of third
paper.


         CITATIONS TO THE SOURCES OF THE COPIED MATERIAL
   The subject included the source and background paper in his list of references
(see pg. 20 of Tab 1). His proposal contains five references to the source paper: one
on page 4, two on page 7, one on page 10, and one on page 17 (see Tab l).19 The

   16 Tab   6, pg. 1.
   17 Ibid.,pg. 2.
   18 Ibid.
   19   The five references in the proposal to the source paper are:
proposal contains 5 references to the background paper: one on page 6, one on page
11,two on page 12, and one on page 13.20 Although the subject included references
in his proposal to the source and background papers, it was not adequate to convey
to the reader the fact that he used ideas, verbatim text, formulas, references, and a
figure from the source paper and verbatim text from the background paper in his
proposal without properly distinguishing them and without sufficient attribution.



   The reference on pg. 4 (Project Summary) simply indicated that the authors of the source paper
   "established. . . that tornadoes transfer a substantial amount of energy to the ground."
   The fust reference on pg. 7 (IdentiFication and Significance of the Problem or Opportunity)
   acknowledged "evidence that seismic signals are produced by a tornado in contact with the
   ground was reported [citation to source paper]. %Thereport is physically sound and provides us
  with a completely new way of detecting when a tornado hit the ground." Although the subject
  acknowledged the report for the "new way of detecting tornado[es]," it was inadequate to
  distinguish the material, including the idea and feasibility of the proposed instrument, that the
  subject copied from the source paper. I t does not convey to the reader that the idea and
  associated instrument were not his.
  The second citation to the source paper on pg. 7 was very similar in content to the citation on pg.
  4 and stated that '[tlornadoes generate a substantial amount of kinetic energy [citation to source
  paper] ."
  The citation on pg. 10 (Tornadic Seismic Waves and Spectral Properties) was to a formula
  derived by the authors of the source paper: "This rate [of energy expanded by the tornado due to
  turbulent shear] as established by [citation to source paper] is given by the formula . . ."
  Although the subject copied five formulas in his proposal from the source paper, this was the only
  one he referenced as originating from the source paper.
  The last citation (Related Work) on pg. 17 indicated that with "the exception of [the authors of
  the source paper], we are not aware of efforts toward detecting tornadoes on.the basis of their
  interactions with the ground."
  20 The five references in the proposal to the background paper are:
  The reference on pg. 6 (Identification and Significance of the Problem or Opportunity) cites the
  background paper for information on Doppler radar: "The capability of Doppler radar to measure
  advancing and receding air motion provides a valuable source of information on storm processes
  frequently associated with developing tornadoes [citation to background paper] ."
  The reference on pg. 11 (Doppler Radar: Advantages, Limitations, and Shortcomings) again
  indicated that the background paper had informationlabout Doppler radar: "Functional
  limitations though are known to effect Doppler-radar, thus reducing their.usefulness [citation to
  background paper]. Below is a short description of the main limitations." The subject then
  copied verbatim 20 (out of 25) lines in this section of his proposal from the background paper.
  The statement of a description does not necessarily imply the description that follows was based
  on or copied from the background paper and the copied text was not distinguished from the
  subject' own.
  The first reference on pg. 12 indicated that the authors of the background paper "note[d] that
  typically, these boundaries are hard to detect beyond lOOkm (50nm) range." Although the
  subject cited this verbatim-copied sentence from the background paper, he did not distinguish it
  from his own text.
  The second reference on page 12 is for a figure that is xerographically reproduced from the
  background paper.
  The reference on pg. 13 ident&es the material a s originating from the background paper, but
  does not otherwise distinguish the sentences as being copied verbatim from the background
  paper. Nevertheless, these two lines were not included in our line count of verbatim copying.
    The Program Director also addressed the sufficiency of the references in the
proposal. He noted that "in key places, proper attribution is not given. . . . The first
sentence of Section 111.1does refer to the [source] paper, but, in pis] opinion, it
would not be clear to a reader that the subsequent discussion has its origins in the
[source] paper. The overlap is substantial. Non-attribution is significant and
serious."21 Also, "[iln this sub-section [III.2], [the source paper] is referenced just
before equation (3). Given the verbatim overlap before and after this reference, in
Fis] opinion, a reader likely would not appreciate the fact that this derivation
would be found almost verbatim in [the source paper]. [He] consider[ed] the
attribution to be marginal and inadequate."22


                              THE SUBJECT'S ROLE
   This proposal was submitted by a small business of which the subject was
president and which lists only two employees. There is no directory telephone or
address listing for the company; the address the subject used for the company is, in
fact, his home address and the telephone number is, likewise, his personal number.
The subject is the only person for whom funding was requested, and the only
curriculum vitae included in the proposal was the subject's. Also, the subject alone
signed the certification page (both as PI and Authorized Organizational
Representative). We conclude it is not likely that the other employee prepared the
proposal, and that the subject was solely responsible for the preparation and
submission of the proposal, and thus, solely responsible for the copied material in
the proposal. We have no statements from the subject to indicate otherwise.


                 ANALYSIS REGARDING MISCONDUCT IN SCIENCE
    NSF defines misconduct in science, in relevant part, as "[flabrication,
falsification, plagiarism, or other serious deviation from accepted practices in
proposing, carrying out, or reporting results from activities funded by NSF"' (45
C.F.R. § 689.1(a)(l)). A finding of misconduct in science against a subject requires
that the subject both com'mitted a bad act an,d did so with a level of culpable intent
that justifies taking action against the subject. In order to make a finding of
misconduct, the subject must have acted, minimally, with gross negligence. NSF's
standard of proof in evaluating each element of misconduct in science is a
preponderance of the evidence.



   The evidence shows that the subject copied approximately 118 lines of verbatim
text, 6 references, 5 formulas, and 2 figures (including the intellectual ideas

   21   Tab 6, pg. 1.
   22   Ibid.,pg. 2.
described in the copied material) from three published papers into the proposal he
submitted to NSF.



    We believe the subject acted culpably when he copied without distinction and
attribution from three published papers into his proposal. Because copying is
inherently a knowing activity, we therefore conclude the subject acted knowingly.
Without input from the subject, we can only make reasonable inferences from the
                                                                                          I
evidence available to us about the subject's intent. We believe a preponderance of
the evidence supports the conclusion that his intention was to deceive NSF's
reviewers and Program Director into believing that these were his ideas, and that
he had the expertise and knowledge to carry out the project represented by those
ideas.
    The subject copied extensive material from the three published papers. It is
simply inconceivable that he could have inadvertently copied such a large quantity
and variety of material (verbatim text, figures, formulas, and references) without
intending to. In particular, two figures from two different published papers were
xerographically reproduced and included in his proposal without any citation or
acknowledgment-an unlikely unintentional occurrence. I n light of the fact that
the subject did provide some citations to the source documents within the proposal,
including some properly referenced figures, it is not possible that the subject merely
forgot to provide the appropriate references and to distinguish the copied text from
his own. The subject demonstrated a selective use of citations, not a lack of
knowledge about how to use them.
    Part of the subject's motive for copying so much from the source paper was likely
the fact that he apparently did not have the scientific knowledge or expertise to
carry out original research in this field. He had a theoretical background in
physics--quantum topology-but claimed in his proposal that his "principal [sic]
field of research includes the development of automated characterization of seismic
events for cluster of earthquakes and man-made explosions and monitoring of
nuclear proliferation."23 There was nothing in thesubject's publication history or
curriculum vitae that indicated such a.claim was justified. As a result, the subject
most likely copied so much material in order to mislead the SBIR Program Manager
and reviewers into thinking that he was indeed a n expert in this area and to
enhance his odds of obtaining a n award. It is undoubtedly easier to use someone
else's words and ideas to appear as a n expert than to actually become a n expert.
Thus, by significantly copying from other experts in the field, the subject sought to
give the appearance of competency. The referees were not misled, however, and one
in particular noted that the subject "has little understanding of seismometry,
despite the unsubstantiated claim (re: the CV) that this is his 'principal field."' The
failure of the subject's effort to mislead does not diminish the significance of his
                   -




   23   Tab 1, pg. 17.
effort with regard to assessing the subject's intent. Consequently, we believe the
subject knowingly copied without distinction or attribution from three published
papers into his proposal to procure a favorable review of his proposal.



   By portraying the work of other scientists as his own, the subject seriously
deviated from the accepted practice, not only in his scientific community, but also in
the wider scientific and engineering community. The subject's references to the two
papers (source and background) are completely inadequate to indicate that he
substantially copied, verbatim text, a figure, formulas, and references from the
papers into his proposal. OIG also believes that a figure was copied from a n uncited
third paper without any attribution is indicative of a pattern of neglect in citing
others' works.
   What NSF expects from scientists and engineers who submit proposals is
clearly spelled out in the Grant Proposal Guide,which contains the forms
used to submit proposals to NSF:24
        NSF expects strict adherence to the rule,s of proper scholarship and
        attribution. The responsibility for proper attribution and citation rests
        with authors of a research proposal; all parts of the proposal should be
        prepared with equal care for this concern. Serious failure to adhere to
        such standards can result in findings of misconduct in science.



        [The proposal] should present the merits of the proposed project clearly
        and should be prepared with the care and thoroughness of a paper
        submitted for publication.
The subject signed the Certification Page both a s PI and a s his company's
Authorized Organizational Representative (see Tab 1). The subject
        certlflied.] to the best of Fis] knowledge that: . . . (2) the text and
        graphics herein as well as any accompanying publications or other
        documents, unless otherwise indicated, are the original work of the
        signatories or individuals working under their supervision.
Thus, the subject falsely certified to the originality of the proposed work. Also, the
subject seriously deviated from not only what NSF expects, but what the scientific
community expects. The professional society of the field in which the subject
received his degree and in which he practiced states?


   24 NSF 95-27, Section A.3. and Section B, Pg. 1.
   25 The American Physical Society (APS) Guidelines for Professional Conduct. The APS statement
is available at http://aps.org/conduct.html.
        Each physicist is a citizen of the community of science. Each shares
        responsibility for the welfare of this community. Science is best
        advanced when there is mutual trust, based upon honest behavior,
        throughout the community. Acts of deception, or any other acts that
        deliberately compromise the advancement of science, are therefore
        unacceptable. Honesty must be regarded as the cornerstone of ethics
        in science.



       Plagiarism constitutes unethical scientific behavior and is never
       acceptable. Proper acknowledgement of the work of others used in a
       research project must always be given. Further, it is the obligation of
       each author to provide prompt retractions or correction of errors in
       published works.
In fact, plagiarism is typically a part of the definition of scientific misconduct
in every major professional society.26 NSF's definition of misconduct in
science uses plagiarism as a paradigmatic example of a serious deviation
from accepted practices.
    Plagiarism involves using as one's own, without distinction or proper
attribution, either the words or the ideas of another person. This includes
transcribing another's words or presenting his or her ideas without attribution in
any section of a proposal submitted to NSF. When a proposal author transcribes
material, as the subject did in his proposal, he must mark it off from the other text
in his proposal so that it is distinguishable by font, indentation, quotation marks, or
other means, from the material he authored. Providing a citation, while necessary,
is not sufficient. A citation to the source is necessary and sufficient only if an
author uses the ideas or methods drawn from another source, but describes them in
his own words. In this case, the subject not only used ideas and methods drawn
from the source paper, but used the same words as the author of the source paper
and, therefore, was obligated to do more than simply provide a citation to the source
paper. In addition to a citation, the subject should have also distinguished the
material he copied from the source paper. On the other hand, the fact that the
subject included some citations to the source and background papers makes this
case less serious than those warranting the most serious sanctions (such as
debarment).
   The Program Manager27 who handled this review stated that SBIR proposals
often have problems with citations. Although the Program Manager said that he
did not have expertise in this particular field and could not address the allegation of

   26 See the report of a n OIG study conducted in the summer of 1995 i n Semiannual Report
number 14, pp. 48-50.
   27 (name redacted). In general, Program Directors for the SBIR program receive proposals on a
wide variety of topics and consult with appropriate experts on a proposal's evaluation.
intellectual theft, he did not think that the copied material was a s bad a s it could
have been because most of it was in the Technical Background section of the report.
However, he also told OIG that extensive use of others' material, particularly in the
background section, could indicate to reviewers that the subject knew the
background material and had a n understanding of the fundamentals of the
problem. If the copied material had been properly attributed and distinguished, the
Program Director thought "little original would be left in the background section,
but it is not necessary that this part be original." However, "[o)ne might question
the [PI'S] knowledge and appreciation of the subject." The Program Director then
illustrated this point with a n example from the proposal where "[olne interpretation
is that the [PI] has mindlessly copied this part of the paper without any
understanding. This fact does not leave one feeling confident that the [PI] has a
good handle on the subject."28
    By copying material verbatim without sufficient attribution or distinguishing it,
the subject presented not only the copied material per se, but the ideas represented
by that material a s his own. The Program Director-who is a n expert in this field-
thought "[tlhe overlap petween the background section of the proposal and source
paper] is substantial. Non-attribution is significant and serious," and the copying
occurred in "a part of the proposal [that] is certainly very significant and important
to the proposal."29 Additionally, he thought that "the proposal does make use of the
intellectual ideas presented in the" source paper.30


              CONCLUSION REGARDING MISCONDUCT IN SCIENCE
   We conclude that in plagiarizing from three papers with the intent to deceive
NSF's reviewers and Program Manager, the subject acted knowingly. Since the
evidence established that the subject copied material and ideas from three
published papers without distinction or attribution, and that he did so knowingly,
we conclude he committed plagiarism-a serious deviation from accepted practices
and misconduct in science.


                        RECOMMENDED DISPOSITION
   Under 45 CFR § 689.2(b) of NSF's misconduct in science and engineering
regulation, when deciding what actions are appropriate when misconduct is found,
NSF officials should consider the seriousness of the misconduct, the intent with
which the subject acted, any evidence of a pattern, and finally, its relevance to other
funding requests or awards involving the university or the individual.
  We conclude the subject acted knowingly when he plagiarized, that this behavior
was a serious deviation from the practices of both the subject's research community

   2 8 ~ a b6, pg. 2.
   29   Ibid.
   30   Ibid.,pg. 1.
as well a s the broader scientific community, and that it violated NSF's expectation
that proposals be prepared with all the care afforded a scientific paper. As
president of his company and a s a n applicant for NSF funds, it is incumbent upon
the subject to ensure that the high scientific standards expected by the community
and NSF are upheld. The evidence casts doubt on the ability of the subject to
uphold these standards. I t is also troubling that the subject provided no
cooperation in response to OIG's request for information, nor made any attempt to
correct NSF's records.
    OIG believes that the certification action recommended below is a n appropriate
action to take in this case. I t ensures that, if the subject affiliates himself with a n
NSF-supported activity, he must (a) state that he has not committed additional acts
of plagiarism, and (b) provide for a n i*dependent review of his documents. The
subject plagiarized from published papers that are openly available to the
community. Because these papers are likely to have been read by. experts in the             \

field, one must assume that plagiarism from these papers carries a higher risk of
detection than plagiarizing from confidential documents that are not accessible to
the community. Thus, OIG believes the subject is equally, if not more, likely to
plagiarize from confidential documents and recommends that the subject not be
allowed to act as a proposal reviewer for 3 years from final disposition of this case.
    OIG recommends several actions by NSF in response to the misconduct in
science by the subject.
1. NSF should send a letter of reprimand to the subject informing him that NSF
   has made a finding of misconduct in science against him.31
   For 3 years from the final disposition of this case, NSF should require the
   subject to obtain certification, signed by himself and co-signed by the PI or
   manager of any federally sponsored research, that any documents the subject
   prepares in connection with the research project contain no plagiarism, i.e., the
   documents are either entirely the work of the subject, or they distinguish others'
   work and contain the appropriate references.32 The subject's and PI'S
   certification should be sent to the Assistant Inspector General for .Oversight for
   retention in OIG's confidential file on this matter.
3. NSF should exclude the subject from participating as a n NSF reviewer, advisor,
   or consultant' for 3 years from the final disposition of this case.33
  We suggest that, prior to taking final action on this misconduct in science
matter, NSF also consider whether the subject has been convicted of a crime that
would warrant a debarment (see next section and 45 C.F.R. 5 620.305(a)(3)).




   31 This is a Group I action ($ 689.2(a)(l)(i)).
   32 This is a Group I action ($ 689.2(a)(l)(iii)).
   33 This is a Group I11 action ($ 689.2(a)(3)(iii)).
                   THE SUBJECT'S RESPONSETO OUR REPORT
    We sent the subject a copy of our draft report, via Federal Express, on February
27, 1998. Federal Express delivered it to the subject's address on March 3, 1998.
When we did not receive a response, we attempted to contact the subject again. We
learned that he was arrested on March 11, 1998, and remains in custody. The
subject's attorney informed us that the subject told him that he had not received our
draft report.34 The misconduct regulation provides that, under unusual
circumstances, we may forward an investigation report without comments from the
subject, and we believe this case constitutes such circumstances.35 We are
concurrently sending the subject this report, and we are asking him to respond
directly to NSFs Deputy Director by May 4, 1998.




    34 The subject's attorney also told us that he does      represent the subject with regard to
anything other that his criminal defense in that case.
    35 Section 5 689.8(c)(2)(i) states: "Except in unusual circumstances, the investigation report will
be provided by OIG to the subject of the investigation, who will be invited to submit comments or
rebuttal. Comments or rebuttal submitted within the period allowed, normally thirty days, will
receive full consideration and may lead to revision of the report or of a recommended disposition."
